pftti)OT p
No.

Supreme Gourt,;U.S.
FILED

IN THE

JUN 1 1 2021

SUPREME COURT OF THE UNITED STATESofrce of.!he

Rocky Orosco, Pro Se

— PETITIONER

(Your Name)
vs.
Bobby Lumpkin,T.D.C.J.-Director

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court Of Appeals For The Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Rocky Orosco
(Your Name)

The Polunsky Unit,3872 FM 350 South,
(Address)
Livingston,T.X.-77351
(City, State, Zip Code)
N/A
(Phone Number)

QUESTION(S) PRESENTED
1)

During Mr.Orosco's trial, the State District Attorney told
the jury that Mr.Orosco's Cell Phone was' "Obtained" with a
warrant when it really was not. And, If there has never been
a hearing or rulling on the "Obtainment" of Mr.Orosco's Cell
Phone in State Court, is Mr.Orosco entitled to recieve a
hearing in the Court Of Criminal Appeals Of Texas to
challenge the "Obtainment" of his Cell Phone that was used in
his trial ?

2)

Could it be Ineffective Assistance Of Trial Counsel since
Mr.Orosco s trial lawyer did not challenge the "Obtainment"
of Mr.Orosco's Cell Phone during the Motion To Suppress
before trial started ?

3)

Could it be Ineffective Assistance Of Appellate Counsel
since Mr.Orosco's direct appellate lawyer did not challenge
the "Obtainment" of Mr.Orosco's Cell Phone during the direct
appeal ?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
N/A

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

9

INDEX TO APPENDICES
APPENDIX A - U.S. Court Of Appeals For The Fifth Circuit Order
Denying Mr.Orosco's C.O.A.;
APPENDIX B- U.S.District Court Order Denying Mr.Orosco's 28
U.S.C. § 2254;
APPENDIX C- Court Of Criminal Appeals Of Texas Denial Of Mr.
Orosco's State Writ Of Habeas Corpus;
APPENDIX D- Volume 3,Page 14 Trial Transcript/Reporters Record
From Mr.Orosco's Trial;
APPENDIX E- Volume 5,Page 15 Trial Transcript/Reporters Record
From Mr.Orosco's Trial;
APPENDIX F - A Copy Of Mr.Orosco's Prison Inmate Account History.

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Johnston V. Shaw, 556 F.Supp.406 at 413(1982)

5,7

Strickland V. Washington, 466 U.S. 668(1984).

5

Miller-El V. Cockrell, 537 U.S. 322 (2003). .

8

STATUTES AND RULES
N/A

OTHER
United States Constitution 5th Amendment
.'.r.United States Constitution 14th Amendment

5,7,8
5,7,8

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
|XQ is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[Xf is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at____
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case

was

4-16-2021____________

M No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____ _.
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The United States Constitution 5th Amendment states as follows:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a grand
jury, except in cases arising in the land or naval forces, or in
the militia, when in actual service in time of war or public
danger; nor shall any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to.be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.(United States Constitution 5th Amendment).
The United States Constitution 14th Amendment Section 1 states
as follows:
Section 1. All persons born or naturalized in the united states,
and subject to the jurisdiction thereof, are citizens of the
united states and of the state wherein they reside. No state
shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the united states; nor shall any
state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws. (United States
Constitution 14th Amendment Section 1).

3

STATEMENT OF THE CASE
Mr.Orosco's grounds 1,2,& 3 all involve the primary subject of
Mr.Orosco's CELL PHONE.
Before Mr.Orosco's trial started, there was a "Motion To Suppress
The Cell Phone Hearing'.' To show how important of an IMPACT the
Cell Phone had in Mr.Orosco's case, during this Motion, the State
District Attorney Jennifer Tharp said the following to the trial
court judge:
"This is definately monumental evidence that if the court was to
grant his motion to suppress, this drastically impacts the states
case',' (R.R.Vol.3, P.14 / Appendix D).
However, none of the lower courts have ADDRESSED or ACKNOWLEDGED
this Vol.3, P.14 Trial Transcript Page at all. Mr.Orosco contends
that this page should be included,,and is important to the review
& assessment of his case.
Furthermore, during Mr.Orosco's trial, the State District
Attorney Chari Kelly made a mistake by telling the jury that the
Phone was "Obtained" with a warrant by stating exactly:
"You can absolutely consider that phone and you can absolutely
consider everything on it because it was obtained legally with
a valid search warrant',' (R.R.Vol.5, P.15 / AppendixJE).
But, and most importantly, Mr.Orosco contends that the State
did NOT actually have a warrant when the Phone was "Obtained".
The warrant that the State had for the Phone was about the
SEIZURE of it, not the OBTAINMENT of it.
None of the lower courts have ADDRESSED or ACKNOWLEDGED this
Vol.5, P.15 Trial Transcript Page at all. Mr.Orosco contends
that this page should be included, and is important to the review
& assessment of his case.
So now

Mr.Orosco is presenting an argument & claim under the
U.S.Constitutions 5th & 14th Amendment Procedural & Substantive
Due Process Rights to a full & fair State Court hearing to
challenge the Obtainment of his Cell Phone.
4

JOHNSTON V. SHAW, 556 F.Supp.406 (1982). (U.S. Constitution
5th Amendment). (U.S. Constitution 14th Amendment).
The violation is the State Courts did not provide Mr.Orosco with
a Procedural Due Process Hearing to challenge the Obtainment of
Mr.Orosco's Cell Phone.
The warrant for the phone, the Motion To Suppress, and all of the
rulings in the lower courts have been about the seizure of the
Phone, not the obtainment of it.
As his ground 2, & 3, Mr.Orosco is also presenting Ineffective
Assistance Of Counsel claims against his Trial & Direct Appellate
Laywers for not challenging the "Obtainment" of Mr.Orosco's Cell
Phone during the Motion To Suppress & and on Direct Appeal,
(Strickland V. Washington, 466 U.S. 668 (1984).
The Cell Phone Constitutionally & Prejudicially impacted Mr.
Orosco's trial & appeal process because the State has not
provided Mr.Orosco with a Procedural due process hearing to
challenge the Obtainment of the Phone in State Court. And now,
everyone is discussing the contents of the Phone violating Mr.
Orosco's U.S.Constitutional 5th & 14th Amendments Substantive
Due Process Rights to privacy before an Obtainment Hearing. (
U.S. Constitution 5th Amendment). (U.S. Constitution 14th
Amendment).
Mr.Orosco contends that the processes provided by the lower
Courts to fully & fairly litigate this claim have been routinely
& systematically applied in such a way as to prevent the actual
litigation of this claim.
Mr.Orosco wishes to recieve a U.S. Constitutional 5th & 14th
Amendment Procedural Due Process Hearing in the Court Of
Criminal Appeals Of Texas to challenge the Obtainment of his
Cell Phone because that is the highest Criminal Appellate State
Court in Texas.

5

REASONS FOR GRANTING THE PETITION
During Mr.Orosco's trial, the State District Attorney made a
mistake by telling the jury to consider Mr.Orosco's Phone
•because it was Obtained with a warrant(RR.Vol.5,P.15/Appendix E).
But, Mr.Orosco Contends that there was NOT actually a warrant
for the Obtainment of Mr.Orosco's Phone. There was only later a
warrant for the SEIZURE of the Phone, not the Obtainment of it.
Mr.Orosco further contends that he deserves to have a HEARING
to challenge the Obtainment of his Cell Phone in the Court Of
Criminal Appeals Of Texas.
Mr.Orosco tried to challenge the Obtainment of his Cell Phone
through a Texas State Writ Of Habeas Corpus in the Court Of
Criminal Appeals Of Texas. But, the State District Attorney &
Trial Court Judge told the appellate court that Mr.Orosco was
not credible, that all of this info, was false, and that Mr.
Orosco was abusing the writ. So, the appellate court DENIED the
Writ based on the trial courts findings without a hearing,
(WR-88,740-01), (Appendix C)«
Mr.Orosco contends that if the Court Of Criminal Appeals of
Texas were to confirm the above Vol.5, P.15 Trial Transcript to
be true; then, confirm that there was not actually a warrant for
the Obtainment of Mr.Orosco's Cell Phone, then that appellate
court will overturn Mr.Orosco's criminal conviction based on
illegally "Obtained" evidence that was used during Mr.Orosco's
trial. That is why this is so important to Mr.Orosco.
The warrant for Mr.Orosco's phone, the Motion To Suppress The
Phone Hearing Before Trial, and all of the RULINGS in the lower
courts have been about the SEIZURE of the Phone, not the
Obtainment of it.
All of the lower courts were erroneous in rejecting Mr.Orosco's
claims because they did not check & confirm the truth of trial
transcript pages that would have entitled Mr.Orosco to relief.
6

The State in Mr.Orosco's case is not going to expose the truth
of any of this info, because it will result to the OVERTURNING
of there own conviction. And, the State does not want that to
happen. That is why Mr.Orosco is trying to bring this info, to
the attention of the Court Of Criminal Appeals Of Texas.
Mr.Orosco Contends that the U.S. Constitutional 5th & 14th
Amendment Procedural Due Process Rights entitle him to a HEARING
to challenge the "Obtainment" of his Cell Phone if there was
never a hearing or ruling on the OBTAINMENT of the Phone. Is
this correct ? (JOHNSTON V. SHAW, 556 F.Supp.406, AT 413 (1982)',
(U.S. Constitution 5th Amendment), (U.S. Constitution 14th
Amendment).
The national importance of this Writ is to interpret the U.S.
Constitution 5th & 14th Procedural & Substantive Due Process
Rights to a hearing to challenge the "Obtainment" of Cell Phone
evidence that was used in a criminal trial. Mr.Orosco contends
\

that there are no cases for this particular issue requiring a
new U.S. Supreme Court Standard.
Mr.Orosco Contends that he is being deprived of life, liberty,
& property without due process of law because the State Of Texas
will not allow Mr.Orosco to challenge the Obtainment of his cell
Phone that was used as evidence in his criminal trial to convict
him, and to sentence him to life in prison, (United States
Constitution 5th Amendment), (United States Constitution 14th
Amendment).
Mr.Orosco also contends that the State Of Texas is denying him
due process, equal protection, and is abridging his privileges
and immunities of U.S. Citizenship because the State Of Texas
will not allow Mr.Orosco to challenge the "Obtainment" of his
Cell Phone that was used as evidence in his criminal trial to
convict him, and to sentence him to life in prison, . . .
7

(United States Constitution 5th Amendment), (United States
Constitution 14th Amendment).
The United States Constitution 5th Amendment States as follows:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a grand
jury, except in cases arising in the land or naval forces, or in
the militia when in actual service in time of war or public
danger; nor shall any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation. (United States Constitution 5th Amendment).
The United States Constitution 14th Amendment Section 1 States
as follows:
Section 1. All persons born or naturalized in the united states,
and subject to the jurisdiction thereof, are citizens of the
united states and of the state wherein they reside. No state
shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the united states; nor shall any
state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws. (United States
Constitution 14th Amendment Section 1).
Because of all the reasons stated above, Mr.Orosco Contends
that the U.S. Court Of Appeals For The Fifth Circuit should
have granted Mr.Orosco's Certificate Of Appealability (C.O.A.)
for the three grounds included in this Writ Of Certiorari,
Miller-El V. Cockrell, 537 U.S. 322 (2003).

8

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

Co,-' l lg-3—1

9

